No. 19-554

In THE
Supreme Court of the Anited States

 

50 Murray STREET ACQUISITION, LLC,
Petitioner,
Vv.

JOHN KUZMICH, ET AL.,
Respondents.

 

CERTIFICATE OF SERVICE

 

Thereby certify that I am a member in good standing of the bar of this Court and
that on this 27th day of November, 2019, I caused three copies of the Brief of Professor
Richard A. Epstein as Amicus Curiae in Support of Petitioner to be served by third-
party commercial carrier on the counsel identified below, and caused an electronic
version to be transmitted to the counsel identified below, pursuant to Rule 29.5 of the
Rules of this Court. All parties required to be served have been served.

Mark W. Mosier Robert S. Smith

COVINGTON & BURLING LLP FRIEDMAN KAPLAN SEILER & ADELMAN LLP
One CityCenter Seven Times Square

850 Tenth Street, NW New York, NY 10036

Washington, DC 20001 (212) 833-1100

(202) 662-5435 rsmith@fklaw.com

mmosier@cov.com
Counsel for Respondents
Counsel for Petitioner

KS
AndréW J. Wilhelm
